OFFICE OF INSPECTOR GENERAL


AUDIT OF THE
COMPLETENESS OF
USAID/MEXICO’S WORK
PLAN DELIVERABLES
AUDIT REPORT NO. 1-523-06-006-P
June 2, 2006




SAN SALVADOR, EL SALVADOR
                Office of Inspector General




June 2, 2006


MEMORANDUM

TO:              USAID/Mexico Director, Edward L. Kadunc Jr.

FROM:            RIG/San Salvador, Timothy E. Cox “/s/”

SUBJECT:         Audit of the Completeness of USAID/Mexico’s Work Plan Deliverables
                 (Report No. 1-523-06-006-P)


This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and have included your response in its entirety in
Appendix II.

The report contains two recommendations for USAID/Mexico’s action. Based on your
comments, a management decision has been reached for Recommendation No. 1. A
management decision will be made for Recommendation No. 2 when USAID/Mexico
develops a firm plan of action with timeframes for implementing the recommendation.
Determination of final action for both recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

I would like to express my appreciation for the cooperation and courtesy extended to my
staff during the audit.




 U.S. Agency for International Development
 Regional Inspector General/San Salvador
 Unit 3110; APO, AA 34023
 Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Did USAID/Mexico ensure that its implementers complete
deliverables as outlined in their annual work plans........................................................... 4

     Mission Could Improve on Work Plan Clarity and
     Progress Reporting ..................................................................................................... 5

     USAID/Mexico Needs to Monitor Efficiency
     Issues.......................................................................................................................... 6

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
Mexico has great strategic importance for the United States and for the other countries
in Latin America. For fiscal year (FY) 2005, USAID/Mexico had contracts and
cooperative agreements with 13 implementers. USAID/Mexico obligated over $32
million and spent over $14 million to fund activities in justice reform, government
transparency and accountability, environmental protection, energy, microfinance and
remittances, infectious diseases, and competitiveness. (See page 2.)

The Regional Inspector General/San Salvador, as part of its fiscal year 2006 audit plan,
performed this audit to determine whether USAID/Mexico ensured that its implementers
completed deliverables as outlined in their annual work plans. (See page 3.)

For 10 of 13 agreements reviewed, USAID/Mexico ensured that its implementing
partners completed deliverables as outlined in their annual work plans. For the three
remaining agreements, one implementer did not submit a work plan, one implementer’s
work plan did not describe deliverables in specific terms, and the third implementer did
not clearly link its progress reports to its work plan.         With these exceptions,
USAID/Mexico used work plans for its implementers to outline tasks and products that
would be accomplished and delivered during FY 2005 and ensured that progress toward
achieving individual tasks and indicators was addressed in implementers’ progress
reports. In this regard, the Mission used work plans, performance monitoring plans, and
progress reports as a tool to monitor the effectiveness of its partners in achieving
planned outputs. (See page 4.)

The Mission could improve its use of work plans and progress reports by ensuring that
work plans have clear indicators and that progress is reported against these same
indicators in the implementers’ progress reports. In addition, the Mission could do more
to monitor efficiency issues by obtaining, where appropriate, progress reports that relate
quantified outputs to cost data. (See pages 4 through 8.)

The report includes two recommendations: (1) that USAID/Mexico correct, for the next
cycle of approvals, the deficiencies in the three implementers work plans and progress
reporting formats and (2) that USAID/Mexico obtain progress reports from recipients
under cooperative agreements that comply with 22 CFR 226.51(d) and obtain progress
reports from contractors that will permit USAID/Mexico staff to ensure that efficient
methods and effective cost controls are used. (See pages 6 and 8.)

USAID/Mexico generally agreed with the conclusions in our draft audit report and agreed
with Recommendation No. 1. For this recommendation, during the next cycle of annual
work plan approvals, the Mission will require three implementing partners to correct the
deficiencies in their work plans and progress reporting formats as specified in the audit
report. The Mission did not believe that it could implement Recommendation No. 2 as
stated in the draft audit report. Based on the Mission’s comments and additional
discussions, we made changes to Recommendation 2 to address the Mission’s
concerns.     Our evaluation of management comments is provided on page 9.
USAID/Mexico’s comments in their entirety are included in Appendix II.




                                                                                        1
BACKGROUND
Mexico has the largest economy in Latin America, the 15th largest economy in the world,
and its population is the second largest in Latin America. Using the purchasing power
parity method, Mexico’s per capita income in 2005 was estimated at $10,000, tied with
Costa Rica and Uruguay for the third-highest in Latin America after Argentina and Chile.
However, income distribution is unequal, and a quarter of Mexico’s population lives on
less than $2 per day. Mexico’s common border with the United States creates strong
mutual influences between the United States and Mexico in the areas of immigration,
trade, and other issues. In sum, Mexico has great strategic importance for the United
States and for the other countries in Latin America.

Monitoring the implementation of USAID program activities is an ongoing process. An
important step in the process is ensuring that planned outputs are achieved.
Establishing clearly defined and objectively measurable outputs in work plans, and
obtaining progress reports that show whether these outputs are actually achieved, helps
USAID hold its implementers accountable for their performance.

USAID/Mexico obtains work plans and progress reports from implementers working
under two types of agreement mechanisms – contracts and cooperative agreements.
Under the contracts, the content of work plans is defined in the contracts themselves.
USAID/Mexico requires contractors to submit work plans that contain the following items:

•   Description of the principal tasks and assistance activities to be undertaken by the
    contractor for the period under each project component and include a schedule for
    each activity and a listing of principal counterparts for each activity.

•   Description and estimate of the amounts of technical expertise, training, and other
    support resources that would be required to provide the assistance proposed.

•   Description of the accomplishments expected for each activity or combination of
    activities that explain how and to what extent those accomplishments will contribute
    to achieving the project’s overall targets, benchmarks, and results.

For cooperative agreements, format and content requirements for work plans were not
explicitly defined: the agreements state that a work plan will be developed, but give
authority to Cognizant Technical Officers (CTOs) to approve the content of work plans
and progress reporting formats.

For FY 2005 USAID/Mexico had contracts and cooperative agreements with 13
implementers to assist it in meeting its program objectives. In FY 2005, USAID/Mexico
obligated over $32 million and spent over $14 million to fund activities in justice reform,
government transparency and accountability, environmental protection, energy,
microfinance and remittances, infectious diseases, and competitiveness.




                                                                                         2
AUDIT OBJECTIVE
As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

   •   Did USAID/Mexico ensure that its implementers complete deliverables as
       outlined in their annual work plans?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     3
AUDIT FINDINGS
Did USAID/Mexico ensure that its implementers complete
deliverables as outlined in their annual work plans?
For 10 of 13 agreements reviewed, USAID/Mexico ensured that its implementing
partners completed deliverables as outlined in their annual work plans. For the three
remaining agreements, one implementer did not submit a work plan, one implementer’s
work plan did not describe deliverables in specific terms, and the third implementer did
not clearly link its progress reports to its work plan.

With the three exceptions noted above, USAID/Mexico used work plans for its
implementers to outline tasks and products that would be accomplished and delivered
during FY 2005 and ensured that progress toward achieving individual tasks and
indicators was addressed in implementers’ progress reports. In this regard, the Mission
used work plans, performance monitoring plans and progress reports as a tool to
monitor the effectiveness of its partners in achieving planned outputs.




                                                            Photo taken by an Office of
                                                            Inspector General auditor on
                                                            March 13, 2006 of two
                                                            recipients of USAID technical
                                                            assistance.    The technical
                                                            assistance was provided by a
                                                            USAID implementer with the
                                                            goal of reducing water
                                                            consumption      to     raise
                                                            tomatoes.



However, the Mission needs to work with three implementers to more clearly link
reported accomplishments with their work plans, and the Mission needs to focus more
monitoring effort on efficiency issues. These two issues are discussed in the following
sections.




                                                                                        4
Mission Could Improve On Work Plan
Clarity and Progress Reporting

Summary: Title 22, Section 226.51 of the Code of Federal Regulations requires that
progress reports compare actual accomplishments with goals and objectives established
for the period. In addition, USAID/Mexico’s cooperative agreements in most cases
require that implementers consult with the CTO prior to drafting their annual work plans.
However, one implementer did not submit a work plan, another implementer did not
describe deliverables in specific terms, and the third implementer did not clearly link its
progress reports to its work plan. This occurred because 1) CTOs and Strategic
Objective Team Leaders did not always insist that implementers present work plans in
measurable terms, 2) one of the implementers had just begun operating in Mexico, and
3) the Mission thought reporting on results at the activity level was sufficient. Resolving
these problems will allow the Mission to track the progress of outputs through progress
reports.

USAID/Mexico could improve their use of work plans and progress reports by ensuring
that work plans have clear indicators and that progress is reported against these same
indicators in the implementer’s progress reports.

Title 22, Section 226.51 of the Code of Federal Regulations requires that progress
reports make a comparison of actual accomplishments with goals and objectives
established for the period. USAID/Mexico contracts and cooperative agreements in
most cases require that implementers consult with the CTO prior to drafting their annual
work plans and prior to submitting the initial quarterly report.

For the 13 agreements reviewed, one implementer did not submit a work plan, another
implementer submitted a work plan with vague objectives, and a third implementer did
not link its progress reports to the work plan at the output level. For one agreement, no
work plan was required and none was submitted. The implementer was supposed to
provide a performance monitoring plan which would have listed deliverables; however,
this was never submitted. For another agreement, we could not determine whether the
implementer delivered planned outputs because the work plan did not describe planned
outputs in measurable terms. Finally, progress reports submitted by a third implementer
– a contractor – did not clearly link actual accomplishments to planned outputs in its
work plan. The contractor’s progress reports did present some information on actual
accomplishments, but at an aggregated level that did not permit any detailed comparison
of planned and actual outputs.

These deficiencies occurred for three main reasons. First, CTOs and Strategic
Objective Team Leaders did not always insist that implementers present work plans and
progress reports that described planned and actual outputs in measurable terms.
Second, one of the implementers presented a somewhat vague work plan because the
implementer had just begun operating in Mexico and lacked the information it would
have needed to present a more specific work plan. Third, for one implementing partner,
the Mission thought reporting on results at an aggregated level was sufficient.

Clear work plans and progress reports are essential for assessing the progress of
outputs and the effectiveness of implementers’ actions. Because all USAID/Mexico
agreements and contracts give CTOs significant authority on an annual basis over work

                                                                                         5
plan development and over progress reporting, we are making the following
recommendation.

   Recommendation No. 1: We recommend that USAID/Mexico correct, for the next
   cycle of approvals, the deficiencies in the three implementers’ work plans and
   progress reporting formats.

USAID/Mexico Needs to
Monitor Efficiency Issues
Summary: The Office of Management and Budget (OMB), through the President’s
Management Agenda and other initiatives, is encouraging federal agencies to improve
the effectiveness and efficiency of their programs. While USAID/Mexico has expended
considerable effort establishing and monitoring indicators of effectiveness, relatively little
effort has been devoted to monitoring efficiency issues. USAID/Mexico did not obtain
progress reports that related quantified outputs to cost data for any of the 13 cooperative
agreements and contracts we reviewed. Relatively little attention was devoted to
efficiency issues because USAID’s organizational culture is much more focused on
monitoring effectiveness than on monitoring efficiency. Devoting more attention to
efficiency issues would at least potentially permit USAID/Mexico to achieve efficiencies
in its programs and accomplish more with fewer resources.

The body of guidance that encourages federal agencies to monitor the efficiency of
federal programs is extensive. The following paragraphs outline some of this guidance,
first describing high-level policies that apply to all federal programs and then describing
lower-level policies that apply more specifically to USAID grants, cooperative
agreements, and contracts.

Part 26, Section 26.1 of OMB Circular A-11 states that:

   Implementation of the President’s Management Agenda (PMA) is helping agencies
   improve effectiveness and efficiency. Agencies are also working to improve their
   efficiency in delivering program services. In addition, all programs are developing
   efficiency measures as part of the Budget and Performance Integration Initiative.
   Becoming more effective and efficient will help the government make better use of
   taxpayers’ dollars and in some cases also operate with fewer resources.

In addition, OMB’s Guidance for Completing the Program Assessment Rating Tool
(PART), dated March 2005, indicates that:

   The PART emphasizes robust outcome, output, and efficiency measures, because each
   kind of measure provides valuable information about program performance. Collectively,
   these measures convey a comprehensive story regarding what products and services
   agencies provide, how well they do so, and with what result.

   While outcome measures provide valuable insight into program achievement, more of an
   outcome can be achieved with the same resources if an effective program increases its
   efficiency. The President’s Management Agenda (PMA) encourages agencies to develop
   efficiency measures. Sound efficiency measures capture skillfulness in executing
   programs, implementing activities, and achieving results, while avoiding wasted
   resources, effort, time, and/or money. Simply put, efficiency is the ratio of the outcome or
   output to the input of any program.

                                                                                                  6
Section 226.51(d) of Part 22 of the Code of Federal Regulations, which applies to all
USAID grants and cooperative agreements with U.S.-based non-governmental
organizations, provides that performance reports shall generally contain a comparison of
actual accomplishments with the goals and objectives established for the period and,
whenever appropriate and the output of programs or projects can be readily quantified,
such quantitative data should be related to cost data for computation of unit costs.
Performance reports should also contain other pertinent information including, when
appropriate, analysis and explanation of cost overruns or high unit costs.

For contracts, Section 16.301-3(a) of the Federal Acquisition Regulations provides that
cost-reimbursement contracts – commonly used to obtain technical services to support
implementation of USAID programs – may only be used when:

   (1) The contractor’s accounting system is adequate for determining costs applicable to
   the contract; and
   (2) Appropriate Government surveillance during performance will provide reasonable
   assurance that efficient methods and effective cost controls are used.

USAID Contract Information Bulletin 98-21 states that the USAID strategic objective
team must determine what minimum reporting requirements are needed to adequately
monitor the contractor’s performance; the USAID contracting officer will then incorporate
these reporting requirements in the schedule of the contract.

Contrary to these policy requirements that encourage USAID to monitor the efficiency
with which its programs are carried out, USAID/Mexico did not obtain progress reports
that related quantified outputs to cost data for any of the 13 US based cooperative
agreements and contracts we reviewed. Even though our audit did not include steps to
determine if outputs could be quantified, because of the potential efficiency savings, we
believe that the mission should determine if obtaining cost data on outputs is appropriate
and obtain the information it needs to monitor efficiency.

USAID/Mexico did not more actively monitor the efficiency with which its programs were
carried out, in our opinion, because USAID’s organizational culture does not encourage
CTOs to concern themselves with efficiency issues. Over a period of many years,
beginning with passage of the Government Performance Results Act in 1993, USAID
has placed progressively more emphasis on measuring effectiveness (that is,
accomplishment of planned outputs and outcomes), but relatively little emphasis has
been placed on monitoring efficiency. This lack of emphasis is reflected in Section
203.3.2 of the Automated Directives System (ADS), entitled “Performance
Management,” which contains an extensive discussion on monitoring effectiveness but is
silent on monitoring efficiency. Still, 22 CFR 226.51 and Section 16.301-3(a) of the
Federal Acquisition Regulations do place specific requirements on USAID/Mexico and its
implementers, and these requirements should be met.

Weak monitoring of efficiency issues makes it difficult for USAID/Mexico to fulfill its
fiduciary responsibility for U.S. Government funds and reasonably ensure that outputs
and outcomes are achieved at the lowest feasible cost. Stated more positively, stronger
monitoring of efficiency issues would at least potentially permit USAID/Mexico to achieve
efficiencies in its programs and accomplish more with fewer resources. For example,


                                                                                            7
relating outputs to cost data for the computation of unit costs, and obtaining explanations
of cost overruns and high unit costs could allow USAID/Mexico to:

•   Better relate expenditures to physical progress.

•   Identify efficiencies that have been achieved and replicate them.

•   Identify and correct inefficiencies.

•   Promote transparency and good financial stewardship by implementers, providing
    better accountability over resources when activities are delayed or cancelled.

In light of the requirements for monitoring efficiency issues described above, and the
benefits that may be realized by doing so, we are making the following recommendation.

    Recommendation No. 2: We recommend that USAID/Mexico obtain progress
    reports from recipients under cooperative agreements that comply with 22 CFR
    226.51(d) and obtain progress reports from contractors that will permit
    USAID/Mexico staff to ensure that efficient methods and effective cost controls
    are used.




                                                                                         8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Mexico’s comments to the draft report are included in Appendix II.

USAID/Mexico generally agreed with the conclusions in our draft audit report and agreed
with Recommendation No. 1. For this recommendation, during the next cycle of annual
work plan approvals, the Mission will require three implementing partners to correct the
deficiencies in their work plans and progress reporting formats as specified in the audit
report. Based on USAID/Mexico’s comments, a management decision has been
reached for this recommendation.

The Mission did not believe that it could implement Recommendation No. 2 as stated in
the draft audit report. Based on the Mission’s comments and additional discussions, we
made changes to Recommendation 2 to address the Mission’s concerns. A
management decision can be recorded for Recommendation No. 2 when USAID/Mexico
develops a firm plan of action with timeframes for implementing the recommendation.
Determination of final action for both recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).




                                                                                       9
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID/Mexico ensured that its implementers completed deliverables
as outlined in their annual work plans.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to the management of implementer’s work plans and progress
reporting. The management controls identified included semi-annual and annual
portfolio reviews; the Strategic Objective Team Coordinator’s oversight of Cognizant
Technical Officers (CTOs); and the annual performance rating process completed by the
CTOs for its contractors. Relevant criteria included Office of Management and Budget
(OMB) Circular A-11, OMB guidance for completing the program assessment rating tool,
22 Code of Federal Regulations (CFR) 226, Section 16.301-3(a) of the Federal
Acquisition Regulations, Contract Information Bulletin 98-21, and the signed cooperative
agreements and contracts with USAID/Mexico’s implementers.

We reviewed 12 work plans submitted to USAID/Mexico for FY 2005 as well as the
corresponding progress reports. We verified reported accomplishments by judgmentally
selecting four implementers to review additional documentation that supported outputs in
implementers’ progress reports. We selected them based on achieving a mix of
geographical locations and types of implementers.

The audit was conducted at the offices of USAID/Mexico and the offices of two Mission
implementers in Mexico City and Oaxaca from February 27, 2006 through March 16,
2006.

Methodology
To answer the audit objective, we obtained from the Mission a list of the Mission’s
agreements and the names of the CTOs assigned to each of the implementers. We
then obtained the cooperative agreements and contracts to determine work plan and
reporting requirements contained in the agreements. For each of the implementers that
submitted a work plan, we obtained and compared the work plans with their progress
reports.

To test the validity of the implementers’ reported accomplishments, we performed site
visits to interview two implementers and reviewed CTO documentation that supported
accomplishments reported in progress reports submitted to USAID/Mexico. For one
implementer, we also observed program activities, and interviewed project participants.

In planning the audit, we considered that exceptions of 10 percent or more of the items
reviewed would be considered significant and therefore reportable.




                                                                                     10
                                                                           APPENDIX II



MANAGEMENT COMMENTS
                                                                            May 16, 2006

MEMORANDUM


FOR:           Regional Inspector General/San Salvador, Timothy E. Cox

FROM:          USAID/Mexico Director, Edward L. Kadunc

SUBJECT:      Management comments and management decision on the
              recommendations stated in Audit Report No. 1-523-06-00X-P “Audit of
              the Completeness of USAID/Mexico’s Work Plan Deliverables” dated
              April 4, 2006.

We have carefully reviewed the draft subject Audit Report. Below you will find
USAID/Mexico’s comments and the management decisions made on the audit’s
recommendations.

I appreciate the professionalism of your team, Jerry Hintz and John Vernon, in
conducting the audit as well as the opportunity to receive an independent assessment of
an important aspect of our portfolio management.

The audit’s recommendation to require greater cost-based data and program efficiency
analysis to complement the Mission’s extensive monitoring of program effectiveness is
well taken. We also concur with the related point that Agency overall organizational
culture, as well as the general policies and systems that govern the monitoring of
assistance instruments in particular, need to better take into account the importance of
cost, and management efficiency. Following are our specific comments related to each
one of the recommendations:

Recommendation No. 1 stated: We recommend that USAID/Mexico correct, for the next
cycle of approvals, the deficiencies in the three implementers’ work plans and progress
reporting formats.

Actions planned to close Recommendation No. 1: In the next cycle of annual work plan
approvals, USAID/Mexico will require its implementing partners to correct the
deficiencies in their work plans and progress reporting formats, as specified in the audit
report. The next cycle of approvals occurs between October and December of 2006.

Recommendation No. 2 stated: We recommend that USAID/Mexico obtain progress
reports from its partners that relate quantified outputs to cost data and, where
appropriate, provide analysis and explanation of cost overruns and high unit costs.

Actions planned to close Recommendation No. 2: 22 CFR 226, which is the governing
regulation for the recipient organizations, states in its Section 226.51 (d) (1) that



                                                                                       11
“Whenever appropriate and the output of programs or projects can be readily quantified,
such quantitative data should be related to cost data for computation of unit costs”.
Therefore, In the case of our recipient partners, the Mission can not implement the
recommendation as stated. Instead, during the next cycle of approvals of annual work
plans, USAID/Mexico will request its recipient partners to ensure that they are in
compliance with regulation 22CFR226.51 (d) (1).

In the case of our contractor partners, during the next cycle of approvals of annual work
plans, USAID/Mexico, will request its contractor partners to relate quantified outputs to
cost data, and where appropriate, provide analysis and explanation of cost overruns and
high unit costs. It should be noted that the next cycle of approvals will take place during
October and December of 2006.

Please consider the actions planned in this memorandum as our management decision
and provide your concurrence accordingly.




cc:    USAID/El Salvador Controller




                                                                                        12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
